OFFICE OF THE HENNEPIN COUNTY ATTORNEY
MicwaeL O. FREEMAN = COUNTY ATTORNEY

 

January 24, 2020
Scott S. Harris, Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: William Anderson, Petitioner v. City of Minneapolis, Minnesota, et al.

S Ct Case No. 19-656

Dear Mr. Harris,

Pursuant to Rule 30.4, I write on behalf of Respondents in the above-captioned matter. The
petition for a writ of certiorari in the above-captioned case was filed on November 18, 2019. The
response to the petition is currently due on February 20, 2020,

We respectfully request a 30-day extension, which would render the response due on March 21,
2020. This extension is requested to complete preparation of the response along with earlier
assigned cases to the attorneys handling this matter.

Thank you for your consideration.

 

Hennepin County Attorney’s Office
Special Litigation Division - Appeals Unit
C-2000 Government Center

300 South Sixth Street

Minneapolis, MN 55487

w: 612.543.4588

 

C-2000 GOVERNMENT CENTER, 300 SoutH SixTH STREET MINNEAPOLIS, MINNESOTA 55487
PHONE: 612-348-5550 www.hennepinattorney.org

HENNEPIN COUNTY IS AN EQusL OrporTuNITY EMPLOYER
